                                                                          U.S. Department of Justice

                                                ROSCOE C. HOWARD, JR.
                                                United States Attorney for the
                                                  District of Columbia
                                                                          Judiciary Center

555 Fourth St. N.W.
                                                Washington, D.C. 20530




                                 PRESS RELEASE

FOR IMMEDIATE RELEASE                           For Information Contact:
Wednesday, May 19, 2004                         Public Affairs
                                                Channing Phillips (202) 514-6933
                                                http://www.usdoj.gov/usao/dc/press/pressrel.html


                St. Petersburg man pleads guilty
       to hacking into government websites and to selling
                   stolen credit card numbers
Washington, D.C. - United States Attorney Roscoe C. Howard, Jr.
announced that Benjamin Stark, 22, of 8246 Eagles Park Drive, St.
Petersburg, Florida, pleaded guilty today before U.S. District
Judge Rosemary          M. Collyer to a two-count felony information that
charged Stark with unauthorized access to a computer causing
damage in connection with his hacking into government computers
as      a     member   of   “deceptive   duo”   and       access         device        fraud,   in
connection with his trafficking in stolen credit card numbers on
the internet.           When he is sentenced on September 24, 2004, Stark
will face up to fifteen years in prison and a fine of $250,000.
Under the federal sentencing guidelines, the defendant faces a
likely prison term of 24 to 30 months.
            According to the government's evidence, in February 2001,
Stark, acting on his own and using the nickname “The-Rev,” gained
unauthorized access to a U.S. Army Corps of Engineers computer
network and made changes to its website.                           In April 2002, Stark
and another devised a plan to call themselves “Deceptive Duo”
while gaining unauthorized access (or “hacking”) into a number of
government and commercial computers located in the United States.
                           Page -2-
Operating as part of “Deceptive Duo,” Stark proceeded to hack
into numerous non-public databases, which contained, among other
information, personal identity information such as passport and
social security numbers and computer passwords.                          The following
government agencies and private entities suffered damages from
the     hacking     activities        of     the    “Deceptive        Duo”:     the      U.S.
Department of Transportation’s Federal Aviation Administration
and Federal Highway Administration; the Defense Logistics Agency;
the Department of Defense’s Health Affairs office; the Department
of Energy’s Sandia National Lab; the Naval Air Systems Command;
the Air Force Publishing Office; Dynamic Systems Inc. and Midwest
Express.     The investigators traced the computer connections from
the     victim     computers       back      to    the    residence      of     Stark     and
subsequently executed a search warrant at his residence.                                 The
damage caused by the “Deceptive Duo” totaled over $135,000.
       Between June 27, 2001, and December 27, 2001, Stark also
used the internet to traffic in stolen credit card information
(including        customer        names,     credit      card     numbers,      addresses,
expiration dates, telephone numbers and email addresses).                               Stark
advertised stolen credit card numbers using an Internet Relay
Chat (IRC) ”room.”           On December 27, 2001, Stark communicated via
IRC with an undercover FBI agent located in Washington, D.C.
Stark then arranged to sell stolen credit card information for
447 cards to the undercover agent in exchange for a $250 payment.
        In announcing the guilty plea, United States Attorney Howard
commended the investigative efforts of Special Agents Jon Burns,
Chenni Huang and Peter Vu of the Federal Bureau of Investigation,
Keith    Bonanno     of     the    Department       of    Transportation        Office     of
Inspector        General,     James        Olmstead      of     the   Defense     Criminal
Investigative Service, Kevin Holston of the Department of Energy
Office of Inspector General, Keith Tate and Michael Wong of the
NASA    Office     of   Inspector      General,          Albert   Wong   of     the     Naval
Criminal Investigative Service and Vince Butstillo of the Air
                            Page -3-
Force.   Mr. Howard also commended the work of former Assistant
United States Attorney Miriam Smolen and Assistant United States
Attorney John Carlin, who prosecuted the case.
                               ###
